INVESTIGATIVE MEMORANDUM ON
MANAGEMENT ISSUES (G-435)

                                                                              February 2, 2006

To:     Annie O’Donoghue

From: Walter Stachnik

Re:     Shuttle Bus Log and Employee Commuting Policy (OIG-435)

During an investigation recently conducted by the Office of Inspector General (OIG-
435), we identified several concerns regarding the passenger logs for the shuttle bus
between Station Place and the Operations Center. The shuttle bus transports Commission
staff and contractors for meetings and other official functions during duty hours. Shuttle
buses currently service Station Place and the Operations Center. 1

We reviewed a sample of the daily “Metro Shuttle Logs” (from October 3, 2005 to
December 28, 2005). Based on this sample, we identified the following problems:
missing daily passenger logs, passenger logs without starting dates or times or the
driver’s name, multiple dates recorded on the same log sheet, and passenger and driver
names illegibly signed rather than printed. Some of the passenger log sheets were
annotated with passenger comments and complaints in the margins. In addition, during
trips on the shuttle bus, we observed that some passengers did not log-in and that some
shuttle buses had no log sheet.

We also found during our investigation that at least ten SEC employees appear to be
using the shuttle bus for daily commuting to work at the Operations Center. According to
the “Shuttle Service Policy” originally issued April 9, 2004, the shuttle bus may not be
used for commuting purposes. 2

To ensure the appropriate use of the Commission’s shuttle service, internal controls over
its use should be improved. The Office of Administrative Services (OAS) concurs with
the recommendations listed below. We note that OAS is initiating appropriate actions to
implement the recommendations for improving the policies and procedures for shuttle
bus service, as indicated in the attached memoranda, dated January 30 and 31, 2006.




1
 The Shuttle previously served 901 E Street.
2
 An updated “Shuttle Service Policy” was posted on the current Insider web page and e-mailed to all SEC
employees on January 31, 2006.
       Recommendation A

       The Office of Administrative Services (OAS) should develop improved
       procedures for ensuring that the shuttle bus log sheets are properly completed,
       maintained and monitored.

       Recommendation B

       OAS should review, update, and publish the policies and procedures for the use of
       the shuttle bus service.

       Recommendation C

       OAS should take appropriate steps to enforce the policies and procedures for
       shuttle bus service provided by the Commission (e.g., regular review of the
       shuttle logs to ensure staff compliance with policies and procedures; publishing a
       warning e-mail to staff regarding penalties for shuttle misuse; and addressing
       complaints against the shuttle bus contractor.)

Enclosures:   (1) OAS Memorandum of January 30, 2006
              (2) OAS Memorandum of January 31, 2006

cc:    Peter Uhlmann
       James McConnell
       Darlene Pryor
       Michele Watkins




                                                                                            2
